CERTIFICATE OF SERVICE
NO. TBD
State of Oklahoma
Petitioner,
v.
Terrance Lucas Cottingham
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
OKLAHOMA V. COTTINGHAM PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct
copies of the same by USPS Priority mail, prepaid for delivery to the following address.
Chad Johnson
Oklahoma Indegent Defense System
P.O. Box 926
Norman, OK 73070
(405) 801-2601
chad.johnson@oids.ok.gov
Counsel for Terrance Lucas Cottingham

Lucas DeDeus

October 1, 2021
SCP Tracking: Cleveland-313 N.E. Twenty-First Street-Cover White

